     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VI
                                                                          1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242

October 14, 2009


Report Number: A-06-09-00089

Mr. Alan Levine
Secretary
Louisiana Department of Health and Hospitals
628 North 4th Street
Baton Rouge, Louisiana 70821-0629

Dear Mr. Levine:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Medicaid Payments for Services Claimed To
Have Been Rendered to Deceased Recipients in Louisiana.” We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414 or Michelle Richards, Senior Auditor, at (214) 767-9202 or through email at
Michelle.Richards@oig.hhs.gov. Please refer to report number A-06-09-00089 in all
correspondence.

                                             Sincerely,


                                             /Mark J. Ables/ for
                                             Patricia Wheeler
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 - Mr. Alan Levine

Direct Reply to HHS Action Official:

Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
rochiora@cms.hhs.gov
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF MEDICAID PAYMENTS FOR
 SERVICES CLAIMED TO HAVE BEEN
RENDERED TO DECEASED RECIPIENTS
          IN LOUISIANA




                        Daniel R. Levinson
                         Inspector General

                          October 2009
                          A-06-09-00089
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. In Louisiana, the
Department of Health and Hospitals (the State agency) administers the program.

The Social Security Administration (SSA) maintains comprehensive death records by purchasing
death certificate information. This information is available to State and Federal agencies to
assist in preventing payments for services purportedly provided to Medicaid recipients after they
are deceased.

The State agency typically obtains death information through obituary notices or contact by a
family member. The State Vital Records Registry maintains death records for deaths that
occurred in Louisiana. The death records are available to the State agency for a fee.

OBJECTIVE

Our objective was to identify Louisiana Medicaid payments made to providers for claims with
dates of service that followed recipients’ deaths.

SUMMARY OF FINDINGS

We identified $7,419 in Louisiana Medicaid payments made to providers for 799 claims with
dates of service that followed 99 recipients’ deaths. Of the 114 recipients who had payments
made on their behalf after they may have been deceased, we confirmed that 89 recipients were
deceased as of June 30, 2005, and that 10 recipients had died after June 30, 2005. We were not
able to verify whether the remaining 15 recipients were deceased.

We did not determine whether one claim paid for a recipient who died after June 30, 2005, had
been identified and recovered. For the remaining claims, the State agency had appropriately
identified and recovered one payment of $5,008 through its normal review process; thus, 797
claims totaling $2,398 ($1,682 Federal share) remained outstanding.

These overpayments occurred because the State agency did not have adequate controls over the
prevention, identification, and recovery of payments for services purportedly provided after
recipients’ deaths and because the death information in the State’s Medicaid system was not
complete or entered in a timely fashion. Additionally, the State agency did not have a process in
place to obtain death information from the State Vital Records Registry.




                                                i
RECOMMENDATIONS

We recommend that the State agency:

       review the adequacy of the claims totaling $2,398 ($1,682 Federal share) and, for those
        determined to be erroneous, recover the payments and refund the Medicaid program;

       review claims with dates of service before and after our claims period for additional
        payments for the 89 recipients;

       obtain dates of death from the State Vital Records Registry;

       determine whether timing is the only reason claims were paid for deceased recipients
        whose dates of death are recorded in the State’s Medicaid system;

       determine whether the claim for the individual who was confirmed deceased after June
        30, 2005, had been identified and recovered; and

       work with SSA to determine whether the 15 recipients whose status could not be verified
        are deceased.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency agreed with our recommendations. The
State agency said that it is in the process of implementing the recommendations and, regarding
the final recommendation, had conducted a manual review on the 15 recipients whose status
could not be verified through the Vital Records Registry. The State agency’s comments are
included in their entirety as the Appendix.




                                                ii
TABLE OF CONTENTS

                                                                                                                                         Page

INTRODUCTION......................................................................................................................1

     BACKGROUND ...................................................................................................................1

     OBJECTIVE, SCOPE, AND METHODOLOGY ..................................................………...1
       Objective ..........................................................................................................................1
       Scope................................................................................................................................1
       Methodology ....................................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................2

     RESULTS OF REVIEW........................................................................................................3

     CAUSES OF OVERPAYMENTS.........................................................................................4

     RECOMMENDATIONS.......................................................................................................5

     STATE AGENCY COMMENTS .........................................................................................5

APPENDIX: STATE AGENCY COMMENTS




                                                                      iii
                                  INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal
level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State
plan. Although the State has considerable flexibility in designing and operating its
Medicaid program, it must comply with applicable Federal requirements. In Louisiana,
the Department of Health and Hospitals (the State agency) administers the program.

The Social Security Administration (SSA) maintains comprehensive death records by
purchasing death certificate information from State Governments and obtaining death
notifications from funeral homes and friends and family of the deceased. All reported
deaths of people who have Social Security numbers are routinely added to SSA’s Death
Master File. This information is available to State and Federal agencies to assist in
preventing payments for services purportedly provided to Medicaid recipients after they
are deceased.

The State Vital Records Registry maintains death records for deaths that occurred in
Louisiana. The death records are available to the State agency for a fee.

From July 2005 to June 2006, the State Medicaid agency processed more than 40 million
claims totaling over $3 billion. The State Surveillance and Utilization Review Unit
performs monthly reviews of dates of death to identify and recover Medicaid
overpayments for services claimed to have been provided after recipients’ deaths.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to identify Louisiana Medicaid payments made to providers for claims
with dates of service that followed recipients’ deaths.

Scope

We selected Louisiana Medicaid recipients who were listed as deceased as of June 30,
2005, in the SSA Death Master File and had payments made on their behalf to providers
for claims with dates of service between July 1, 2005, and June 30, 2006. We identified
2,367 claims totaling $383,073 for 114 recipients.

Using information from SSA, the State Medicaid Management Information System
(MMIS), and the State Vital Records Registry, we attempted to confirm whether the
recipients were deceased. For Medicaid-eligible recipients confirmed deceased as of



                                            1
June 30, 2005, we determined whether the State agency had already recovered the
amounts paid for claims with dates of service between July 1, 2005, and June 30, 2006.

We did not review the overall internal control structure of the State Medicaid program.
We limited our internal control review to obtaining an understanding of the State
Medicaid program’s procedures to identify payments for services claimed to have been
provided for deceased individuals and to recover the overpayments.

We conducted our audit work from May through July 2009.

Methodology

To accomplish our objective, we:

      reviewed applicable Medicaid laws and regulations;

      reviewed the State agency’s policies and procedures related to death notification
       and to preventing payments or recovering overpayments for deceased recipients;

      matched Louisiana Medicaid eligibility information to the SSA Death Master File
       by Social Security number and date of birth to identify potentially deceased
       Louisiana Medicaid recipients;

      limited the universe to those recipients who had paid claims from July 1, 2005, to
       June 30, 2006;

      compared SSA death information to State agency and State Vital Records
       Registry data to determine whether the SSA date of death was accurate for each
       recipient;

      determined whether the State agency had identified and recovered overpayments
       for recipients who were confirmed deceased as of June 30, 2005, or whether the
       payments remained outstanding; and

      coordinated our review with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                      FINDINGS AND RECOMMENDATIONS

We identified $7,419 in Louisiana Medicaid payments made to providers for 799 claims
with dates of service that followed 99 recipients’ deaths. Of the 114 recipients who had


                                            2
payments made on their behalf after they may have been deceased, we confirmed that 89
recipients were deceased as of June 30, 2005, and that 10 recipients had died after June
30, 2005. We were not able to verify whether the remaining 15 recipients were deceased.

We did not determine whether one claim paid for a recipient who died after June 30,
2005, had been identified and recovered. For the remaining claims, the State agency had
appropriately identified and recovered one payment of $5,008 through its normal review
process; thus, $2,398 ($1,682 Federal share) for 797 claims remained outstanding.

These overpayments occurred because the State agency did not have adequate controls
over the prevention, identification, and recovery of payments for services purportedly
provided after recipients’ deaths and because the death information in the State’s
Medicaid system was not complete or entered in a timely manner. Additionally, the State
agency did not have a process in place to obtain death information from the State Vital
Records Registry.

RESULTS OF REVIEW

Federal regulations (42 CFR § 433.304) state that an overpayment is the amount that a
Medicaid agency pays to a provider in excess of the amount that is allowable for
furnished services. Payments for services claimed to have been rendered after Medicaid
recipients’ deaths are overpayments.

Of the 114 recipients:

   Eighty-nine recipients were deceased as of June 30, 2005.

    o For 74 recipients, SSA’s records had the same dates of death as the State Vital
      Records Registry’s records. The State agency’s records did not show a date of
      death for 50 recipients, matched SSA’s records for 17 recipients, and showed a
      different date of death for 7 recipients.

    o For 12 recipients, SSA’s dates of death did not match the State Vital Records
      Registry’s dates of death, but all dates were before June 30, 2005. The State
      agency’s records did not show a date of death for eight recipients, showed a
      different date of death from the State Vital Records Registry’s and SSA’s records
      for two recipients, and matched SSA’s records for two recipients.

    o For three recipients, SSA’s dates of death matched the State agency’s; the State
      Vital Records Registry’s records did not show dates of death.

    The State agency paid providers $7,406 for 798 claims for services purportedly
    provided to 89 recipients after their dates of death. One long-term-care claim was
    recouped; thus 797 claims totaling $2,398 ($1,682 Federal share) remained
    outstanding.




                                            3
    Of the 797 claims, 1 claim was for an electrocardiogram, and the rest were for
    community care fees. The State agency provides reimbursement to primary care
    physicians who are enrolled as physician managers in the Community Care Waiver
    Program to ensure that the recipients under their care receive the appropriate hospital
    and specialty care as well as primary care. These physicians were reimbursed a $3
    management fee per month per Medicaid recipient enrolled in the Community Care
    Waiver Program.

   Ten recipients died after June 30, 2005. The State agency paid providers $249,154
    for 1,046 claims for services provided to the 10 recipients. We confirmed that SSA’s
    dates of death were not correct by reviewing death certificates or other supporting
    documentation. For the six recipients who died between July 1, 2005, and June 30,
    2006, we compared the dates of service of the claims to the dates of death and
    determined that five recipients were alive when the services were performed and that
    there was only one claim for $13 that was for services purportedly performed after the
    date of death. We did not determine whether the State agency had identified and
    recouped the payment. The four remaining recipients died after June 30, 2006;
    therefore, we were not able to review their claim histories.

   Fifteen recipients did not have a date of death noted by either the State Vital Records
    Registry or State agency. Therefore, we were not able to verify whether these
    recipients were deceased. The State agency paid providers $126,513 for 523 claims
    for services provided to the 15 recipients.

CAUSES OF OVERPAYMENTS

The overpayments occurred because the State agency did not have adequate controls over
the prevention, identification, and recovery of payments made for services purportedly
provided after recipients’ deaths. There was not a process in place to obtain death
information from the State Vital Records Registry. Thus, the State agency lacked
important information when considering whether to make initial payments or whether the
payments were for services purportedly provided after recipients’ deaths and should be
recovered.

In addition, the State Surveillance and Utilization Review Unit’s monthly reviews of
deaths were not successful in identifying all overpayments because the death information
in the Medicaid system was not complete or entered in a timely fashion. The reviews
track deaths that occurred 13 months earlier to allow ample time for the date of death to
be recorded in the State Medicaid system.




                                             4
RECOMMENDATIONS

We recommend that the State agency:

       review the adequacy of the claims totaling $2,398 ($1,682 Federal share) and, for
        those determined to be erroneous, recover the payments and refund the Medicaid
        program;

       review claims with dates of service before and after our claims period for
        additional payments for the 89 recipients;

       obtain dates of death from the State Vital Records Registry;

       determine whether timing is the only reason claims were paid for deceased
        recipients whose dates of death are recorded in the State’s Medicaid system

       determine whether the claim for the individual who was confirmed deceased after
        June 30, 2005, had been identified and recovered; and

       work with SSA to determine whether the 15 recipients whose status could not be
        verified are deceased.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency agreed with our recommendations.
The State agency said that it is in the process of implementing the recommendations and,
regarding the final recommendation, had conducted a manual review on the 15 recipients
whose status could not be verified through the Vital Records Registry. The State
agency’s comments are included in their entirety as the Appendix.




                                            5
APPENDIX
                                  Page 1 of 2


APPENDIX: STATE AGENCY COMMENTS
Page 2 of 2
